No. 20-891

3!ntbe

$,Upreme (ourt of tbe fflniteb $)tate~
AMERICAN AxLE & MANuFACTURING, INC.,

Petitioner,
V.
NEAPCO HOLDINGS LLC AND
NEAPCO DRIVELINES LLC,

Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL
CIRCUIT
BRIEF OF AMICUS CURIAE HOUSTON INTELLECTUAL
PROPERTY LAW AsSOCIATION IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
1973 ords, excluding the parts of the document that are exempted from Supreme Court
Rule 3. l(d).
I decl re under penalty of perjury that the foregoing is true and correct.

11

eitz
Legal Discovery
alker St. Suite 353

Swor to and subscribed before me this 1st day of March, 2021.
Digitally signed by Evelyn

Evelyn McNaspy McNaspy

Date: 2021.03.01 19:45:32 -06'00'

Evely Lea McN aspy
Nata Pubic
State of Texas, County of Harris

